No.
^ 'll

CD

'"D

(Dj
IN THE
SUPREME COURT OF THE UNITED STATES

1 . PouQgRS
(Your Name)

SooTrt
ft

_

SEftCv^

PEW^E|r; p r ; ;

ynlMBtMW

vs.

BTAU
rod Do ASSOC— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

PILED
AUG 18 202'

trcL
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

L 9ooaecs
(Your Name)

(Address)

iQ.rn~v

J PL 33\3cI

(City, State, Zip Code)

6.335
(Phone Number)

;vi

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
QUESTION?
Can you Amend The Double Jeopardy Clause? Civil Cases May
Require Protection from Criminal Judicial Servants. My Life Was
Altered SO They Could Live. They Altered My Truth And It
Happens, So There Needs To Be A Safety Net To Protect The People
SO This Doesn’t Happen.

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
QUESTION?
Can you Amend The Double Jeopardy Clause? Civil Cases May
Require Protection from Criminal Judicial Servants. My Life Was
Altered SO They Could Live. They Altered My Truth And It
Happens, So There Needs To Be A Safety Net To Protect The People
SO This Doesn’t Happen.

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page. [ x ] All
parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of
this petition is in U.S. Supreme Court Case 2019-6695. Barry Shevlin
Esq was in charge of copying all parties. I will add names to the List of ET
ALs from New York and Miami upon this Writ Of Certiorari’s Acceptance.
RELATED CASES
RIGWAN VS NEUS. 2005-018381 -CA-01 Trial Court 11th Judicial Circuit in
Miami-Dade County, Florida. 2nd False Judgement Miami. Florida.
Recused Judge. Judgement entered June 20, 2008.
SOUTH BCH BAYSIDE CONDO ASSN I INC VS RIGWAN, 2008-041113CA-01. Trial Court 11th Judicial Circuit in Miami-Dade County, Florida.
$30k, says $21 k False Mortgage Foreclosure Charge again, Condo Abuses
Triple Jeopardy Never Tried again, Neus’s name added to parties 2019.
Judgement entered Sept. 18, 2009. Satisfied Judgment Sept. 23, 2010
SOUTH BEACH BAYSIDE CONDOMINIUM ASSOCIAT VS RIGWAN
2013-033946-CA-01. Trial Court 11th Judicial Circuit in Miami-Dade
County, Florida. Original Lien Missing and Seen Altered in Future Cases.
Neus’s name added to parties 2019. Original Deed Missing Years and put
back after Proving Fraud 2020. Non-Existent Docket Entries Post Aug. 6,
2015 Appear. Forged Order Oct. 21, 2015 Appears and that Lawyer Fired.
Res Judicata Judgement entered Aug. 6, 2015.

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT

RELATED CASES—Pgs 2.
RIGWAN VS SOUTH BEACH BAYSIDE CONDOMINIUM ASSOCIATION
] 2017-029902-CA-01. Trial Court 11th Judicial Circuit in Miami-Dade
County, Florida. Judgement Denied Writ Prohibition (CG) entered Jan. 22,
2018.
SOUTH BEACH BAYSIDE CONDOMINIUM ASSOCIATION I. VS
RIGWAN. 2016-005009-CC-25. Trial County Court in Coral Gables (CG) in
Miami-Dade County, Florida. False Mortgage Foreclosure. False Fees on
My Birthday Apr. 20, 2018. Condo Abuses Never Tried. Incriminating
Transcript Uploaded. Morburger Never Informed That Condo Foreclosed
On Twice. I learned from record 2019. Judgement entered Apr. 17, 2018.
RIGWAN VS SOUTH BEACH BAYSIDE CONDOMINIUM ASSOCIATION I
2018-017351-CA-01. Trial Court 11th Judicial Circuit in Miami-Dade County,
Florida. Case Proves Judgement Over $15K and Fraud In Other Cases.
Rule Nisi entered June 1,2018. Nunc Pro Tunc False Amended Judicial
Joke Order Thanks to Morburqer’s Unclean Hands entered Aug. 2. 2018.
RIGWAN VS LYNX MGMT ET AL. 2017-020072-CC-05, Trial County Court
in Miami-Dade County, Florida. Fraud. Judgement Dismissed Mar. 2, 2020.
RIGWAN VS SOUTH BEACH BAYSIDE CONDO ASSOC. 2018-000137AP-01, Circuit Court 11th Judicial Circuit Appellate Division in Miami-Dade
County, Florida. Fake Case. Morburger Unclean Hands. They copy him
though Withdrawn. Judgement Denies Dismissal Oct. 8, 2020 Transfer to
3DCA 21-0012 entered Dec. 1, 2020. 3DCA Appeal entered Jan. 5, 2021.
RIGWAN VS NEUS, 2019-032361-CA-01. Trial Court 11th Judicial Circuit
in Miami-Dade County, Florida. 2nd Recusal Order entered Dec. 22, 2020.
Open case.

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT

RELATED CASES—Pgs 3.
RIGWAN VS JORDAN, 08-1906, Third District Court Of Appeals in Miami
Florida. Judgement entered Sept. 4, 2008.
RIGWAN VS SOUTH BEACH BAYSIDE CONDO, 09-0053, Third District
Court Of Appeals in Miami, Florida. Judgement entered Sept. 9, 2009
RIGWAN VS SOUTH BEACH BAYSIDE CONDO. 18-0330. Third District
Court Of Appeals in Miami, Florida. Judgement entered Feb. 26, 2018.
RIGWAN VS NEUS, 18-1642. Third District Court Of Appeals in Miami,
Florida. Judgement entered Apr. 17, 2019. Rush Eviction Anon Order.
RIGWAN VS NEUS. 18-0811. Third District Court Of Appeals in Miami,
Florida. Judgement entered May 29, 2019. Fishy Case W/ Skeletons.
RIGWAN VS NEUS, 18-1235, Third District Court Of Appeals in Miami,
Florida. Consolidation Case Judgement entered May. 29, 2019.
RIGWAN VS SOUTH BEACH BAYSIDE CONDO ASSOC, 21-0012. Third
District Court Of Appeals in Miami, Florida. 0 Judgement. Open Case.
RIGWAN v. NEUS, 2000-21069, Supreme Court, Suffolk County (Central
Islip. L.l. though his office is in Riverhead) First Unconscionable. 1-Sided.
Fraudulent Judgment. Syndicate Made Docket To Appear Factual.
Years Later I See The False Record and Piece All Together Easily. Judge
T. Whelan sent my case to Florida 50/50 State, where Miami Syndicate
created 2nd False Judgement led by Judge M. Rodriguez. He knew I was in
a Homeless Marriage 3+years. I showed Restraining Order where I was
attacked to get-out and found they altered the Residency Requirement
(which they altered since 2018 officially).Judgement entered Aug. 23, 2003.

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
RELATED CASES—Pgs 4.
RIGWAN v, NEUS. 2017-6021, Supreme Court, Suffolk County (Central
Islip, L.n Judge Quinn ET AL Illegally Transferred case from Manhattan to
Central Islip Court & Judged Without My Awareness, Mail Fraud, No
for proof
Process Service, One Legal Assistant Fired. See Appendix
of fake process service. Judgement entered Apr. 5, 2019.
RIGWAN v. NEUS, 2017-309696. Supreme Court Of New York Appellate
Division: First Department (Manhattan). Judge Katz couldn’t overturn
fraudulent case transfer to Long Island Court via Interstate Mail Fraud
Scheme. Judgement entered May 16, 2019
RIGWAN v. NEUS. 2019-07711, Supreme Court Of New York Appellate
Division: Second Department (Brooklyn). I Proved Interstate Fraud; Chief
Judge Scheinkman Wouldn’t Recuse; He Left Office. A Main Lawyer Left
Without Notice. Showed Religious Wedding Proof, Res Req Altered, And
Rest. Order. Delaying Now. Open Case
RIGWAN V NEUS. 2019-6695, U.S. Supreme Court in Washington D.C.
Neus ET AL Lied to U.S. Supreme Court; Neus brought zero contracts,
said otherwise, and was represented. Judgement entered Apr. 20, 2019.
L POWERS VS ARTHUR MORBURGER 2019-034863-CA-01, Trial
Court 11th Judicial Circuit in Miami-Dade County, Florida. Judgment Dis­
missed 6/16/202 With Prejudice._Storage Hell Due To Double Jeopardy
Property Fraud By The Court, Esqs, ET AL.
L POWERS VS ARTHUR MORBURGER 20-1012, Third District Court
Of Appeals in Miami, Florida. Judgement Affirmed On May 31,2021
L POWERS VS ARTHUR MORBURGER 20-8278, Supreme Court
United States, Amend 14 & 5. Writ Certiorari May 31, 2021.

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.......3
STATEMENT OF THE CASE

4-14

REASONS FOR GRANTING THE WRIT

15

CONCLUSION

16
INDEX TO APPENDICES

APPENDIX A

Decision of Florida Court of Appeals Dated 01/20/2021

APPENDIX B

Decision Of Florida Trial Court

APPENDIX C

Decision of Florida Supreme Court Denying Review

APPENDIX D

Mortgage Foreclosure Fee $46,716 Paid Another Case

APPENDIX E

Partition Judgment False Facts Fake Mortgage Case

APPENDIX F

Recent Miami Beach Case Won: Water Turned Off

APPENDIX G

Proof Ignored Jury Trial Requests (2 Cases)

APPENDIX H

Collected Mortgage Fees (My Birthday), No Receipts

APPENDIX I

Joined Neus To Case Over Year Past Legal Deadline

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT

APPENDIX J

Plumbers Report Stating Sewage Building’s FAULT

APPENDIX K

Denied Writ Prohibition Defending LC Judge & 3DCA

APPENDIX L

Process Service + Other Intentional Judicial Errors

APPENDIX M

Proof Of $2M Maintenance When Bldg Demolished

APPENDIX N

3DCA’s Bogus Accomplices To Fraud Withdrawal

APPENDIX O

Stolen Case Law Is MINE!!! Compare Them.

APPENDIX P

Gongora’s Memo Running Miami Beach Mayor States
Will Get Judge To Decide A City Discrepancy (Scary!)

APPENDIX Q

Proof Cervera Esq Accomplice Mortgage Case Found

APPENDIX R

Email Proof Solas Esq Instantly Fired Upon Outed

APPENDIX S

A Forgery Of Original Lien By Alvarez Esq Verbatim

APPENDIX T

Article Judge’s Lie. In Cert #20-8278 Was Suspended

APPENDIX U

Article My Lawyer’s Lie. In Cert # 20-8278 Suspended

APPENDIX V

Unlawful Decisions Got Him Promoted To 3DCA Chief
Property Scams Got Them Promoted FL Supreme Crt

APPENDIX W

Title has wrong legal description; it’s 16422 not 16442

APPENDIX X

3DCA/Clerk Mooted Case On Their Own (For Defs)

APPENDIX Y

Greenberg’s signature on Fraud. Comnare To Ann. D

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT

CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED

Constitution:
14th Amendment- Equal Protection Under The Law
5th Amendment- Double Jeopardy Clause

Statutory:
18 USC 1001 False Statements
18 USC 287

False, Fictitious Or Fraudulent Claims

TABLE OF AUTHORITIES
PAGE NUMBER:

CITED CASES:

Precedent For Double Jeopardy Cases In Civil Court

STATUTES AND RULES:
FL Sta. 839.13- Falsifying Records
OTHER:
Title 11 Crimes and Punishments: 1051 Misconduct Public Office;
Forgery 701; Bribery 351; Abuse Of Process 102; Disturb Peace 551

3.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
to

The opinion of the United States ;ourt of appeals appears at Appendix
the petition and is
/
; or,
[ ] reported at
[ ] has been designated/for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reporter at
[ ] has h/en designated for publication but is not yet reported; or,
[ ] is unpublished.
[JFor cases from state courts:
The opinionnf the highest state court to review the merits appears at
Appendix
__ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States^Court of Appeals decided my case
was______________________ /
[ ] No petition for rehearing'was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the^fmlowing date: __________ ___________ , and a copy of the
order denying'rehearing appears at Appendix_______
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
to ana including______
(date) on
in Application No.__ A
ie jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was G'P'CiJL
A copy of that decision appears at Appendix
------

i olOotA

[yf A timely petition for rehearing was thereafter denied on the following date:
/V]viA.rA. 191 A
and a copy of the order denying rehearing
appears at Appendix_Al
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date)in
to and including____
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

i.

V
X
X
V
V

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
SOUTH BEACH BAYSIDE
CASE #2018-000137-AP-01
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT

V

STATEMENT OF CASE

V

x

This Cert involves 3-Bogus Cases Re: My Miami Beach Condo: a LC

X
V

& 2 Appellates. You can’t trust anything they say; dockets Altered,

X
X

Omitted, Steered, Made up facts by Judges, Lawyers, Developers,

X
v
X

Clerks; took facts from old cases, inserted them e.g. Forged Lien.
NOAs sooner. I bring evidence 2-Condo Assocs Who Won Unlawfully
Judge, they invented a FAKE MORTGAGE FORECLOSURE

x
x

Case, as a Double Jeopardy Fraud Scam made to ‘appear normal’;

X

I Never Had A Mortgage. They put ‘same facts & no.s in a Partition
Case to get paid extra; intended in case Partition Auction fell through
/Ann D). SHAM compensated in Partition Case, Amend 5.
Lived w/mold, sewage, roof leaks; they fixed nothing, no matter
how much I paid. Judges-Lawyers Endangered Me w/Court Crim­
inal Rackets: 21.8 1/2 yrs, Amends 5+14, via schemes over 100
vrs old. This Rare Petition Can Amend Our Constitution on
Double Jeopardy in Civil Cases: judges ET AL went Against Oaths

H.
[Type here]

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
render-ing me HOMELESS (App E) + Village Idiots Denied Me Vs
Them Protection: Court, Bldg Code Compliance, Police, Fire + Mail.
LC Judge Pedraza, #2016-005009-CC-25:
Forged 3-Mortgage Foreclosures. Delayed ensure seizure Prop­
erty + $$$ in Forged Partition Auction. Puppet never foreclosed.
Accepted False Accounting + Fees Without Trials (RICO Pattern).
Never held trial on Severe Condo Abuses, Amend 14—e.g.turned
OFF Water 17+ yrs (App F). Denied Jury Trial (App G).Collected mor­
tgage fees (App HI. Fought assoc 22 yrs: paid maint + assessments.
Her docket boasts 6 hearings at 5-min ea, lists 141 entries
124 only appear: 3A Pups, Out-Of-Order Docs (Mine Mislabeled to
Deter Viewing). Jordan Neus Joinder Law past 120 Days (App II.
Added Neus to case list to appear as if he was involved for years.
Omitted 11 Plumbing Report Stating Bldg At Fault (App JL 2) Full
Tax History (Partition said didn’t pay. I uploaded to 3DCA -18-1235
+++), 3) Incriminating Transcript Judge Accepting Unrecorded Acc­
ounting (Uploaded 3DCA Partition Cases), 4) Docs from Law Firms

[Type here]

&

5.

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
Shevlin & Atkins + 5) Becker & Poliakoff (Accomplices At LARGE) to
coincide with 3DCA’s lack of accountability (RICO Pattern)
Judge Miguel De La O:
Backed Judge Pedraza’s Apparent Lies, Denied Writ, (Appendix K).
Jordan Neus:
^Fraudulent Marriage: Quick meet + marry religious wedding for
children Miami Beach. Quickly took all, put me NY streets 3+Yrs.
Connected Judges. Abused Judicial System + Me. Was Rewarded.
Judge Jose Rodriguez, #2005-018381-CA-01:
Syndicate Lead Recused 2Xs! Erred Partition Judgment: Delayed
Appreciate.Said Couldn’t Include NY Judgement (HOMELESS Bride)
(API Appellate Judge Trawick, #2018-000137-AP-01:
Asked My Lawyer Overturn My Winning FL Supreme Court Case
Law to conform to the $15K case limit, not consistent with LC Docs.
Morburger Obliged, Before Me & GHOST Wannabees (Michael Gon
gora, Barry Shevlin, Adam Cervera + Frank Siam). In Secret Case

d?.
[Type here]

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
#2018-17351 CA 25: Docket #4=Nisi, #10=Incriminated, #12=My
White Case Stolen, #17=Cervera Incriminated, #18=Nunc,_18US287
The Transfer From AP To 3DCA
Fear cases on the list were targeted like me? They don’t copy me so
I wouldn’t combine related cases to incriminate them.
Harvey Ruvin, Chief Clerk of Courts:
Co-conspirator. Approved case as is (Ann L): Template Forms, Docs
Unsigned, w/o Case No.s, w/Zero to Nil Process Service per False Emails, Forged Affidavits +Lien. INJUSTICE 22/30 Years AT LEAST.
PROPERTY MGMT COMPANY:
Operated 3 SHELL Co. w/ different names. Accounting Scams.
Responsible Fake $2M Assessment When Bldg. Demolished (App M).
Becker & Poliakoff Firm:
FRAUDULANT NO. 1 Miami FORECLOSURE FIRM. Approved 3-FAKE
Mortgage Foreclosures + Forgeries by Gongora, Sabogal, Cervera,
Solas, Esqs. Pretended Aren’t Involved; 3DCA Agreed (App N)
[Type here]

T

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
Liliana Farinas-Sabogal Esq:
Took My Case Law (Appendix Oh DIDN’T SIGN GONGORA’s name
to My Attys’s Betrayal Argument. I Outted Her; she added Gongora
+ removed my doc. Never NOA; one just Appeared. 3DCA Pardoned
Forgery like the Bldg Transfer Rid Crimes, 3DCA is Repeating.
Michael Gongora Esq - Vice Mayor Miami Beach:
Told Judge Trawick ET AL + Me in Court Would Forge
Argument. Switch $16K+ Out, + quash mv winner. 3DCA wrongly
mooted case (Appendix P) Amend 14,18US1001,Cert #20-8278
Gongora put Partition Papers in Mortgage Case Supporting
My Question to Amend The Double Jeopardy Clause (Appendix E).
Gongora ET AL Hid Mv Original Deed from Mortgage + re
lated cases To Hide REAL LEGAL DESCRIPTION; Quick Claim Deed
Always Appears ONLY with wrong legal descript to match their docs.
Gongora 8s Cervera’s Anon Order to Evict = a Judge Lopez +
Judge Miller Property Fraud Racket. Morburger said he had 2

[Type here]

?.

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
clients they did same. Anon Orders SHOULD BE OUTLAWED.
Gongora running Miami Beach Mayor, said will use a “Judge” settle
city discrepancy (Appendix O)—no doubt one from my party list.
Adam Cervera Esq - Realtor - GHOST AT LARGE:
Mortgage Foreclosure - Partition SCAMMER. Found Paper w/his
name misspelled (Appendix R). Tried To Ghost, Like Gongora ET AL
Candace Solis Esq:
Removed Order #2013-0339 46-CA-01 (5yrs) to appear I haven’t
paid since 2011 in Mortgage Case; I won res judicata. I Putted.
Firm Fired (App S). Order appeared w/false hearings. Not listed by
her firm to withdraw like Cervera; Paid in Partition Case, Amend 5.
Frank Perez-Siam PA:
Consists of Frank Siam & Daniel Lopez Esqs
Frank Siam Esq:
Forged Lien by Nestor Alvarez Esq #2013-033946-CA-01: Removed
It. Put His Name On It; Had Same Open Dates + No.s In Above Doc
[Type here]

<?.

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
Switch. Same font- weird design-spacing-wording (App T). *Note:
Siam Appeared on Judge Trawick’s Daily Docket in a Lien Forgery
Incubator Property Fraud Side Biz, Amends 5 &14, 18US1001.
Miami Court Records Dept:
Accomplice To Original Lien Removal from #2013-033946-CA-01.
Daniel Lopez Esq:
Forged Accounting:created fees, hearing advised, didn’t record first
(Pattern #2008-041113-CA-01 w/Bayer Esq). 3DCA Framing Him.
Shevlin & Atkins Firm:
Fraudulent Firm Excels Forgery, FAKE Cases, Interstate Fraud:
FL-NY Barry Shevlin, Gal Rosenzweig-Betesh, Andrew Atkins, Josie
Barry Shevlin Esq:
Literally On Judge Trawick’s Speed Dial. Mortgage - Partition
Fraud Extraordinaire. Lied Taped OA w/My Atty+3DCA. Forged
Judgement word “Public” to “Private”. Lied SCOTUS Cert# 19-6695

to.
[Type here]

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
Gal Betesh:
In Shevlin’s Ear-Piece. Fraudulent Fees (ie, travel to + from court
= 20-30 mins ea way, puts 2-3 hrs, 5 min hearings; fake emails to
Process serve = $140. Fee to Live Construction Zone = $46,716.7
Judge Zilber:
License Suspended May 18, 2021. Ruled Stay for Defs (Appendix U)
Pretended WE didn’t have hearing. Storage Cert #20-8278.
Morburger Esq:
License Suspended June 16, 2021 (App V). Withheld 3 foreclosures,
OA, hearings (all against pleas to disqualify); advised Defs 1) how to
rush-evict me, 2) on a winning argument & 3) to relay to 3DCA (who
rush evicted me anonymously + impetus to This Transfer?) for
closure, pretended on my team, threw away copy lien & other
important docs, acted ‘double agent’, wouldn’t stop conflicts of them
working both cases (benefitting Judges, Lawyers, Developers, Neus,
Himself], Fake Lawyer - Saboteur. Storage Cert #20-8278.

/ I.
[Type here]

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
He 90% wrote about points I didn’t want. My angle was the
living conditions, jury trial, and monetary reimbursement.
He disqualified after his verbal harm done. I am a Pro Se
FINALLY, Yet Transfer Court, 3DCA + Defendants Copied HIM.
Judge Emas, #3DCA-21-0012:
Promoted ‘3DCA LEADER’ to SECURE Mortgage Foreclosure, OA,
+ Partition Cases. I Outted Him, He Stepped Down.
3DCA:
Lawless, Treasonous, Endanger Public; Easily Bought. [Many]
Received Promotions from DOUBLE JEOPARDY Smoke Screen Cases
TO CHEAT JUSTICE! Property Scam Mill, FL Sta. 839.13 (App WL
Scott Robbins:
Apex Predator Developer. Forged Dockets. Rigged Auction. Member
Prestigious Fontainebleau Hotel Family, Deeply Connected, Partner
Billionaire Levine (Miami Beach ex-Mayor)On This Shady Hotel Deal

IX.
[Type here]

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
Rory Greenberg:
Developer’s Evil Bitch. Led FAKE $180K Auction & $46K Mortgage
SCAMS (Appendices X & Y). Facade Condo Pres = Hotel ‘Broker +
highest condo bidder: received email (text) any bidder going >him by
$100. Locked me out bldg many times, stole my eye glasses, set loud
alarm every night/months, put a hole in my pink wall Cert #19-6695.
Avi Brosh:
Interstate Fraud Transfer (CA.FL.NY) re: PaliHotel Chain. Passed
Lemon Bldg at Public Judicial Sale.
Judge Lopez:
3DCA put him in charge of D.O.F’s: Mortgage & Partition. E.g., He
Gave Shevlin’s Atty $3K sans motion hearing just by Zoom call. I
was charged sanctions I believe for Morburger. Entire SHAM.
NY’s Judge Thomas Whelan:
Rewarded Neus for being “cruel & inhumane.” Made us litigate in
Miami too: Double Jeopardy. Amends 14, 5 18US1001.

i%-

[Type here]

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
Miami Beach Efficiency Condo:
Condo Assoc Illegally Transferred Bldg 2017 to Assoc of
Billionaires, who Stopped Mail 2017 to prevent me knowing about
hearings; Prematurely Destroyed Homestead in Liti-gation; Process
Served Same Address Stopped Mail; Demolished Bldg before went
Auction 2018; (Video in Link Cert #19-6695); Judges Pretended
Litigate For Jordan Neus (Facade Hoteliers Posing Condo
Assoc). Framed To Pay past lien won res judicata, no repairs after
countless treasonous scam suits in Miami + New York courts, and
demolished bldg with NO Lobby, Water, AC

•••

THEY Defamed +

Endangered Me (For Decades) + Threatened Sanctions! They Co
Mingled Monies In a Fake Mortgage + Partition Case, Delayed, Used
Court Resources, Fed Off The People AT LARGE With Dangerous
Racket, Which Must End, Title 11; 1051, 701,351, 102, 551,
Thank-You.

[Type here]

m.

[Type here]

[Type here]

UNITED STATES SUPREME COURT
L POWERS
WRIT OF CERTIORARI
PETITIONER
3DCA OF FLORIDA CASE #21-0012
VS
CASE #2018-000137-AP-01
SOUTH BEACH BAYSIDE
LC
CASE #2016-005009-CC-25
CONDO ASSOC
RESPONDENT
REASONS FOR GRANTING THE PETITION
Amend the Constitution on Double Jeopardy. The Public in Civil
Cases Deserve The Judicial System to work for them every time.
Treason in Court Systems is prevalent harming justice, like it did me.
The Double Jeopardy Clause should not be for convicted criminals
only. We must unite to include it for everybody. Innocent Citizens
like Myself Nationally Are Framed with False Personas due to false­
hoods in many cases appearing truthful. Happened to my mother at
age 21 making it 100 years that Judges Favor Rich-Powerful Males
Unlawfully, Thereby Judging Without Regard To Oaths Destroying
Women’s Lives! Families! Equity! Justice in America! We are
People Too! (Sniffle).
An Amendment to Our Constitution on Double Jeopardy when
courts fraud our judicial system and commit treason in civil cases
should take precedence by closing the gap for future gens so no one
is able to pay themselves $46K in a FAKE Mortgage Foreclosure +
Partition Case so easily. Thank-You.

15[Type here]

[Type here]

[Type here]

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

ocoe/up
Date:

i (o•

